LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 25, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE:

MARK LEYSE V. BANK OF AMERICA, NATIONAL ASSOCIATION

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on August 25, 2021,
I caused service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020,
on the following counsel for the Respondent:
RESPONDENT:
David J. Fioccola
Morrison & Foerster
250 West 55th Street
New York, NY 10019-9601
212-336-4069
dfioccola@mofo.com
This service was effected by depositing one copy of a Petition for a Writ of Certiorari in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 25th day of August 2021.

